COMMODITY FUTURES TRADING COMMISSION

   SEMIANNUAL REPORT
         OF THE


  OFFICE OF THE
INSPECTOR GENERAL




     FOR THE PERIOD ENDING MARCH 31, 2014
                           U.S. COMMODITY FUTURES TRADING COMMISSION
                                                 Three Lafayette Centre
                                      1155 21st Street, NW, Washington, DC 20581
                                              Telephone: (202) 418-5110
                                               Facsimile: (202) 418-5522
                                                      www.cftc.gov


   Office of the                                April 30, 2014
Inspector General



      TO:            The Commission


      FROM:          A. Roy Lavik
                     Inspector General

      SUBJECT:       Semiannual Report of the Office of the Inspector General


              Attached is the Office of the Inspector General’s Semiannual Report for the period from
      October 1, 2013, through March 31, 2014. This report is submitted to you in accordance with
      the requirements of Section 5 of the Inspector General Act of 1978, as amended (IG Act), 5
      U.S.C. App. 3 § 5 and 8G.

              Under section 5(b) of the IG Act, the SAR shall be transmitted to the appropriate
      committees or subcommittees of Congress within thirty days after receipt of the Semiannual
      report, together with a report by the head of the establishment conforming to the requirements of
      section 5(b) of the Act.

              I appreciate your continuing support of this office.


      Recipients:

      Mark P. Wetjen, Acting Chairman
      Scott D. O’Malia, Commissioner

      Attachment:
      Semiannual Report for the CFTC OIG
                     OFFICE OF THE INSPECTOR GENERAL
                  COMMODITY FUTURES TRADING COMMISSION

                                            SEMIANNUAL REPORT
                                           FOR THE PERIOD FROM
                                   October 1, 2013 THROUGH March 31, 2014


                                                TABLE OF CONTENTS
TABLE OF CONTENTS................................................................................................................. i!

INDEX OF IG ACT REPORTING REQUIREMENTS ............................................................... iii!

EXECUTIVE SUMMARY ............................................................................................................ 1!

MANAGEMENT AND ADMINISTRATION .............................................................................. 4!
    1.! CFTC Programs and Operations.......................................................................................... 4!
    2.! OIG Responsibilities............................................................................................................ 4!
    3.! OIG Resources ..................................................................................................................... 6!
COMPLETED AUDITS, INSPECTIONS, EVALUATIONS, REVIEWS and OTHER
PROJECTS ..................................................................................................................................... 6!
    1.!  Audit of CFTC Customer Protection Fund for Fiscal Year 2013........................................ 6!
    2.!  Audit of CFTC Financial Statements for Fiscal Year 2013 ................................................ 7!
    3. ! Management Letter - CFTC Financial Statements for Fiscal Year 2013 ............................ 7!
    4.!  Limited Review of Compliance with the Federal Managers' Financial Integrity Act
         (FMFIA), Section 2 and Section 4....................................................................................... 8!
    5. ! Audit of CFTC’s FY2013 Implementation of the Federal Information Security
         Management Act of 2002 .................................................................................................... 8!
    6.! Inspector General’s Assessment of CFTC’s Management Challenges ............................... 9!
    7.! Review of the Commodity Futures Trading Commission’s Response to Allegations
         Pertaining to the Office of the Chief Economist ............................................................... 10!
CURRENT AUDITS, INSPECTIONS, EVALUATIONS, REVIEWS, and OTHER PROJECTS
....................................................................................................................................................... 13!
    1.! Audit of CFTC Financial Statements for Fiscal Year 2014 .............................................. 13!
    2.! Audit of CFTC’s Resource Allocation on Information Technology for Achieving its
        Strategic Regulatory Goals of Ensuring Sound Markets, Mitigating Systemic Risk, and
        Monitoring Intermediaries ................................................................................................. 13!
    3.! Audit of CFTC’s Procedures for Evaluating Futures Commission Merchants’ (FCM) and
        Retail Foreign Exchange Dealers’ (RFED) Compliance with Mandated Financial
        Regulatory Reporting Requirements ................................................................................. 14!




                                                                            i
   4.! Audit of the CFTC Consumer Outreach Program’s Efforts for Enhancing Awareness of
       Regulatory Resources and Protections Available to Commodity Market Users Against
       Fraud .................................................................................................................................. 14!
   5.! Limited Review of CFTC’s Compliance with the Improper Payments Elimination and
       Recovery Act (IPERA) ...................................................................................................... 15!
   6.! Review of CFTC’s Use of Leased Space in Kansas City .................................................. 15!
AUDIT REPORTS and REVIEWS OVER SIX MONTHS OLD................................................ 16!
   1.! Corrective Action not Completed ...................................................................................... 16!
   2.! Corrective Action Completed ............................................................................................ 16!
   3.! Management Decision not Made ....................................................................................... 16!
INVESTIGATIONS ..................................................................................................................... 16!

SUMMARY OF MATTERS REFERRED TO PROSECUTORIAL AUTHORITIES ............... 16!

CONGRESSIONAL INQUIRIES ................................................................................................ 17!

LEGISLATIVE, REGULATORY AND RULE REVIEWS ........................................................ 17!

PEER REVIEWS .......................................................................................................................... 18!

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD ...................................... 19!

REVISED MANAGEMENT DECISIONS .................................................................................. 19!

INSPECTOR GENERAL DISAGREEMENT ............................................................................. 19!

GAO LIASON .............................................................................................................................. 19!

STRATEGIC PLAN FOR THE OFFICE OF THE INSPECTOR GENERAL ........................... 20!
   1.! Investigative Agenda ......................................................................................................... 20!
   2.! Legislative and Regulatory Review Agenda ..................................................................... 20!
   3.! Audit, Inspection, Evaluation and Review Agenda ........................................................... 21!
CONTACTING THE OFFICE OF THE INSPECTOR GENERAL............................................ 23!

TABLE 1 – REPORTS ISSUED WITH QUESTIONED COSTS ............................................... 24!

TABLE 2 – REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT TO
BETTER USE ............................................................................................................................... 25!




                                                                       ii
         INDEX OF IG ACT REPORTING REQUIREMENTS

Section 4(a)(2)    Review of legislation and regulations...……...………..………...….…...17

Section 5(a)(1)    Significant problems, abuses and deficiencies……………….......…….....1
.
Section 5(a)(2)    Recommendations with respect to significant problems….........................1

Section 5(a)(3)    Significant recommendations that have not been completed……...……16

Section 5(a)(4)    Matters referred to prosecutorial authorities……………….….……. …16

Section 5(a)(5)    Summary of instances where information was refused….……..….…...19

Section 5(a)(6)    Completed audit reports...………………………………………...……..6

Section 5(a)(7)    Significant audit reports……...…………………………..………...........1

Section 5(a)(8)    Statistical Table—Questioned Costs……………….…………..………24

Section 5(a)(9)    Statistical Table—Funds Recommended for Better Use…….….….…..25

Section 5(a)(10)   Audit reports lacking management decision…………………….……..16

Section 5(a)(11)   Significant revised management decisions……………………….…....19

Section 5(a)(12)   Significant management decisions where the IG disagrees………...….19

Section 5(a)(13)   Information described under the Federal Financial Management........…7
                   Improvement Act of 1996

Section 6(b)(2)    Summary of reports to Chairman where assistance was refused……....19




                                             iii
                OFFICE OF THE INSPECTOR GENERAL
             COMMODITY FUTURES TRADING COMMISSION

                                  SEMIANNUAL REPORT
                                 FOR THE PERIOD FROM
                         October 1, 2013 THROUGH March 31, 2014


                                 EXECUTIVE SUMMARY

        This semiannual report is issued by the Commodity Futures Trading Commission’s
(CFTC’s) Office of Inspector General (OIG) pursuant to the Inspector General Act of 1978, as
amended.1 It summarizes OIG’s activities and accomplishments for the period October 1, 2013
through March 31, 2014. During this period, OIG completed 3 audits, one management letter,
two reviews, one evaluation, and issued a required discussion of management challenges. OIG
began one audit and one limited review during the reporting period. OIG continued work on
three audits and one review, all begun during the prior reporting period. A peer review of the
OIG audit function was begun during the reporting period. No changes in OIG personnel took
place during the reporting period.

        OIG reviewed selected proposed Division of Enforcement actions, as well as selected
rules proposed by CFTC and by regulated entities, and other Agency actions. In addition, OIG
participated in training, visited CFTC field offices, and participated in Government-wide OIG
professional and cooperative meetings and activities. No investigations were begun during the
reporting period. No significant problems, abuses or deficiencies regarding CFTC programs and
operations were identified during the reporting period.

       Highlights of OIG’s completed and ongoing audits, evaluations, peer review activities,
and other projects include:

•   In accordance with the Accountability of Tax Dollars Act of 20022, OIG contracted for and
    completed the required fiscal year (FY) 2013 audit of the CFTC financial statements. For the
    ninth consecutive year, the audit concluded that the CFTC financial statements were
    presented fairly, in all material respects, and were in conformity with the U.S. generally
    accepted accounting principles.

•   In accordance with the Dodd-Frank Act,3 OIG contracted for and completed the required FY
    2013 audit of the CFTC Customer Protection Fund. The Customer Protection Fund financial
    statements as of September 30, 2012, were presented fairly, in all material respects, in
    conformity with U.S. generally accepted accounting principles.

1
  P.L. 95-452, 92 Stat. 1101 (1987).
2
  P.L. 107-298, 116 Stat. 2049 (2002).
3
  Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-208, 124 Stat. 1376 (2010).

                                                      1
•      OIG contracted for and completed an audit of CFTC’s FY 2013 implementation of the
       Federal Information Security Management Act of 2002 (FISMA), performed in accordance
       with generally accepted government auditing standards. The audit was performed in
       accordance with generally accepted government auditing standards, and the report was issued
       on February 20, 2014. The audit report concluded that the CFTC has made positive strides
       over the last year in addressing information security weaknesses and continues to make
       progress in becoming fully FISMA compliant; however, the CFTC still faces challenges to
       fully implement information security requirements as stipulated in various federal guidelines
       and mandates and included 14 recommendations.

•      OIG completed a limited review to determine whether the evaluation of the system of
       internal accounting and administrative control, as described in Office of Management and
       Budget Circular No. A-123, Management’s Responsibility for Internal Control, has been
       carried out in a reasonable and prudent manner at the Commodity Futures Trading
       Commission for FY 2013. Nothing came to our attention that would indicate that the CFTC
       is not complying with the above-mentioned circular.

•      In accordance with The Reports Consolidation Act of 2000, OIG completed a management
       letter that summarizes the Inspector General’s opinion of the most serious management and
       performance challenges facing the CFTC FY 2014 and assessed the agency’s progress in
       addressing management challenges identified for FY 2013. OIG concluded that progress had
       been made in addressing the challenges identified for FY 2013.

•      OIG completed its Review of the Commodity Futures Trading Commission’s Response to
       Allegations Pertaining to the Office of the Chief Economist (OCE). CFTC received a
       complaint regarding the use of confidential trade information by OCE economists in
       December 2012; after an initial review lasting two days Agency management shut down the
       research program and prohibited all publication and presentation of OCE papers. OIG began
       its review in January 2014, and found insufficient evidence to prove any misuse or improper
       disclosure of confidential trade information by OCE economists, identified potential Agency-
       wide internal control weaknesses pertaining to the use of confidential trade information,
       concluded that recent changes to the economic research program had damaged the program
       and raised legal issues due to the length of time the Agency was taking to both review
       proposed economic research papers and to reestablish comparable research capabilities that
       existed prior to the receipt of the complaint, and recommended restarting the research
       program and making the review process more efficient and shorter.

•      In accordance with the Accountability of Tax Dollars Act of 20024, OIG contracted for and
       began monitoring the required FY 2014 audit of the CFTC financial statements.

•      In compliance with the Improper Payments Elimination and Recovery Act of 2010 (IPERA),
       OIG began a limited review of improper payment reporting in the agency’s FY 2013 Annual
       Financial Report (AFR) to assess the agency’s compliance with IPERA.

4
    See fn.2.

                                                   2
•   The Office of Inspector General for the Export-Import Bank began a peer review audit of the
    CFTC OIG audit function.

•   OIG continued monitoring a contract audit that will assess the review process employed by
    CFTC examination staff in the Division of Swap Dealer and Intermediary Oversight to
    evaluate financial information received from Futures Commission Merchants and Retail
    Foreign Exchange Dealers in compliance with CFTC regulatory requirements including CEA
    section 1.16 and 1.17. The audit may also evaluate policies and procedures CFTC employs
    to ensure that registrants holding customer funds remain in compliance with CFTC
    requirements.

•   OIG continued monitoring a contract survey audit of CFTC’s resource allocation on
    information technology for achieving its strategic regulatory goals of ensuring sound
    markets, mitigating systemic risk, and monitoring intermediaries.

•   OIG continued monitoring a contract audit of the CFTC Consumer Outreach Program’s
    efforts for enhancing awareness of regulatory resources and protections available to
    commodity market users against fraud.

•   OIG continued its review of the CFTC’s leased space at its Kansas City field office, to
    evaluate whether leased space is being used efficiently. We delivered a discussion draft to
    relevant Agency management on March 31, 2014.




                                                3
                     MANAGEMENT AND ADMINISTRATION

1.         CFTC Programs and Operations

       Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission’s mandate was renewed and/or expanded in 1978, 1982, 1986,
1992 and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through Fiscal Year 2005 with the passage of the Commodity Futures Modernization
Act of 2000 (CFMA). In May of 2008, Congress reauthorized the CFTC through Fiscal Year
2013. On July 21, 2010, the President signed into law the Dodd-Frank Act, which expanded
CFTC’s jurisdiction and authorities.

        The CFTC is responsible for fostering the economic utility of futures markets by
encouraging their competitiveness and efficiency, ensuring their integrity and protecting market
participants against manipulation, abusive trade practices and fraud. Through effective oversight
regulation, the CFTC enables the commodity futures markets better to serve their vital function
in the nation’s economy–providing a mechanism for price discovery and a means of offsetting
price risks. The recent Dodd-Frank Act authorized the CFTC to regulate swap dealers, increase
transparency and improve pricing in the derivatives marketplace, and lower risk to the American
public.

         The CFTC operating divisions are: Office of the Chairman, Division of Clearing and
Risk, Division of Swap Dealer and Intermediary Oversight, Division of Enforcement, Division
of Market Oversight, Office of the Chief Economist, Office of the Executive Director, Office of
General Counsel, Office of International Affairs, and Office of Data and Technology. In
addition to its headquarters office in Washington, DC, the CFTC maintains offices in Chicago,
Illinois; Kansas City, Missouri; and New York, New York.


2.         OIG Responsibilities

       The CFTC OIG was created in 1989 in accordance with the 1988 amendments to the
Inspector General Act of 1978.1 OIG was established as an independent unit to:

      •    Promote economy, efficiency and effectiveness in the administration of CFTC programs
           and operations and detect and prevent fraud, waste and abuse in such programs and
           operations;

      •    Conduct and supervise audits and, where necessary, investigations relating to the
           administration of CFTC programs and operations;
1
    Inspector General Act Amendments of 1988, P.L. 100-504, 102 Stat. 2515 (1988).

                                                         4
    •   Review existing and proposed legislation, regulations and exchange rules and make
        recommendations concerning their impact on the economy and efficiency of CFTC
        programs and operations or the prevention and detection of fraud and abuse;

    •   Recommend policies for, and conduct, supervise, or coordinate other activities carried out
        or financed by such establishment for the purpose of promoting economy and efficiency
        in the administration of, or preventing and detecting fraud and abuse in, its programs and
        operations; and

    •   Keep the Commission and Congress fully informed about any problems or deficiencies in
        the administration of CFTC programs and operations and provide recommendations for
        correction of these problems or deficiencies.

       OIG is required to conduct, supervise and coordinate audits of CFTC programs and
operations in accordance with generally accepted government auditing standards.2 OIG is also
required to recommend changes to existing and proposed CFTC programs and operations to
promote economy, efficiency and effectiveness and to prevent and detect fraud and abuse.

        The OIG also conducts inspections, evaluations, and reviews from time to time. As
stated in the 2011 Quality Standards for Inspection and Evaluation issued by the Council of
Inspectors General for Integrity and Efficiency (CIGIE):

        An inspection is defined as a process that evaluates, reviews, studies, and/or analyzes the
        programs and activities of a Department/Agency for the purposes of providing
        information to managers for decision making; making recommendations for
        improvements to programs, policies, or procedures; and identifying where administrative
        action may be necessary. Inspections may be used to provide factual and analytical
        information; monitor compliance; measure performance; assess the efficiency and
        effectiveness of programs and operations; share best practices; and inquire into
        allegations of fraud, waste, abuse, and mismanagement.3

        OIG investigations are performed in accordance with the Quality Standards for
Investigations issued by the President’s Council on Integrity and Efficiency and the Executive
Council on Integrity and Efficiency and are performed in response to allegations and/or evidence
indicating possible violations of law, regulations, or applicable standards, as well as other
improper conduct in connection with the programs and operations of the Agency. 4

      OIG operates independently of the Agency and has not experienced any interference from
the CFTC Chairman or Commissioners in connection with the conduct of any investigation,

2
  The US Government Accountability Office issues the Government Auditing Standards (December 2011). The
standards are available at http://gao.gov/assets/590/587281.pdf.
3
  Quality Standards for Inspection and Evaluation, page i. http://www.ignet.gov/pande/standards/oeistds11.pdf.
4
  The publication titled Quality Standards for Investigations (December 2003) was issued by the President’s
Council on Integrity and Efficiency and the Executive Council on Integrity and Efficiency and subsequently adopted
by the CIGIE. The standards are available at http://www.ignet.gov/pande/standards/invstds.pdf.

                                                        5
inspection, evaluation, review, or audit, and our investigations have been pursued regardless of
the rank or party affiliation of the target. OIG has conducted audits, inspections, evaluations,
and reviews without interference where it has perceived the opportunity to recommend
improvement to futures regulation efforts, again without regard to the party affiliation of any
Chairman or Commissioner.5


3.       OIG Resources

       The CFTC OIG consists of the Inspector General, an acting Assistant Inspector General
for Audit, a Senior Auditor, two Attorney-Advisors, and a secretary. The Inspector General has
been with the CFTC since 1990.


      COMPLETED AUDITS, INSPECTIONS, EVALUATIONS,
             REVIEWS and OTHER PROJECTS

1.       Audit of CFTC Customer Protection Fund for Fiscal Year 2013

Audit Objectives

        Section 745(g)(5)(I) of the Dodd-Frank Act requires the Agency to submit to Congress a
yearly report on the Commission’s whistleblower award program that includes a complete set of
audited financial statements, including a balance sheet, income statement, and cash flow
analysis. The OIG undertook this required audit.

       The objective of this audit was to render an opinion on the CFTC’s Customer Protection
Fund’s financial statements and report on the Customer Protection Fund’s internal controls and
compliance with laws and regulations.


Status

        CFTC OIG contracted with an independent public accounting firm (IPA) to perform this
audit. OIG monitored this required audit, and the IPA reported on October 30, 2013, that the
Customer Protection Fund financial statements as of September 30, 2013, were presented fairly,
in all material respects, in conformity with U.S. generally accepted accounting principles.6




5
  The Inspector General Act of 1978, as amended, states: “Neither the head of the establishment nor the officer next
in rank below such head shall prevent or prohibit the Inspector General from initiating, carrying out, or completing
any audit or investigation….” 5 U.S.C. App. 3 sec. 3(a).
6
  Available here: http://www.cftc.gov/ucm/groups/public/@aboutcftc/documents/file/cpfreport2012.pdf.

                                                         6
2.         Audit of CFTC Financial Statements for Fiscal Year 2013

Audit Objectives

        In FY 2002, Congress passed the Accountability of Tax Dollars Act (ATDA). The
ATDA requires the CFTC, along with numerous other Federal entities, to have its financial
statements audited annually. To this end, following a formal procurement, the Inspector General
selected an IPA to provide the audit effort required to enable the contractor to render an opinion
on the Agency’s financial statements for Fiscal Year 2013.

       The objective of this audit was to render an opinion on the CFTC’s financial statements
and report on the Agency’s internal controls and compliance with laws and regulations.

Status

         For the ninth consecutive year, an independent public accounting firm reported that the
CFTC financial statements were presented fairly in all material respects, and in conformity with
the U.S. generally accepted accounting principles for Federal agencies. Furthermore, the CFTC
financial management system is in substantial compliance with the Federal Financial
Management Improvement Act of 1996 (although CFTC is not required to comply with FFMIA,
it has elected to do so). The financial statement audit report was issued on December 17, 2013.7


3.         Management Letter - CFTC Financial Statements for Fiscal Year 2013

Audit Objectives

        Pursuant to the audit effort required to render an opinion on the Agency’s financial
statements for FY 2013, the IPA procured on behalf of the Inspector General was required to
identify any matters requiring the issuance of a management letter.

        The objective of the management letter is to report deficiencies identified during the audit
that did not materially impact the financial statements but require corrective action.

Status

           The management letter containing five recommendations was issued on December 16,
2013.




7
    Available here: http://www.cftc.gov/ucm/groups/public/@aboutcftc/documents/file/2012finstatementaudit.pdf.

                                                         7
4.         Limited Review of Compliance with the Federal Managers' Financial Integrity Act
           (FMFIA), Section 2 and Section 4

Review Objectives

        The Office of the Inspector General has conducted a limited review to determine whether
the evaluation of the system of internal accounting and administrative control, as described in
Office of Management and Budget Circular No. A-123, Management’s Responsibility for
Internal Control, has been carried out in a reasonable and prudent manner at the Commodity
Futures Trading Commission for the year ended September 30, 2013.

       The Circular requires each agency to assess and report on the adequacy of internal controls
over its programs and operations (Federal Managers’ Financial Integrity Act of 19828 (FMFIA)
Section 2), and to assess, document, and report on controls over financial management systems
to ensure conformance with government-wide requirements (FMFIA Section 4).

Status

    During this limited review, nothing came to our attention that would indicate that the
CFTC is not complying with the above-mentioned circular.


5.         Audit of CFTC’s FY2013 Implementation of the Federal Information Security
           Management Act of 2002

Objectives

       The Federal Information Security Management Act of 2002 (FISMA)9 outlines the
information security management requirements for agencies, and includes an annual independent
evaluation of an agency’s information security program and practices to determine their
effectiveness. FISMA requires the annual evaluation to be performed by the agency’s Office of
the Inspector General (OIG). The objective of this audit was to perform an independent
evaluation of the CFTC’s FY 2013 implementation of FISMA in accordance with generally
accepted government auditing standards (GAGAS). As part of this audit, the OIG also assessed
the CFTC’s privacy program and privacy impact assessment processes as described in the
Agency’s FISMA package.

Status

       CFTC OIG contracted with an IPA to conduct the audit in accordance with GAGAS. The
required OIG template was completed and submitted to the Office of Management and Budget
(OMB) on November 30, 2013 and the final evaluation report concluded that the CFTC has
made positive strides over the last year in addressing information security weaknesses and
continues to make progress in becoming fully FISMA compliant. However, the CFTC still faces

8
    P.L. 97-255, 96 Stat. 814 (1982).
9
    P.L. 107-347, 116 Stat. 2899 (2002).

                                                8
challenges to fully implement information security requirements as stipulated in various federal
guidelines and mandates. The report included 14 recommendations.


6.       Inspector General’s Assessment of CFTC’s Management Challenges

Assessment Objectives

       The Reports Consolidation Act of 2000 requires the Inspector General to summarize the
most serious management and performance challenges facing the CFTC and to assess the
Agency’s progress in addressing those challenges. This memorandum summarizes the results of
the CFTC’s current financial statement audit, describes the Agency’s progress on last year’s
management challenges, and finally discusses the most serious management challenges that we
have identified.

Status

Update: FY 2012 Management Challenges identified by the OIG. At the close of FY 2012, the
OIG identified two most serious management challenges: Efficient Deployment of Information
Technology Resources and Expanding Delivery of Customer Protection Resources and
Consumer Education. During fiscal year 2013 the Agency addressed both issues, but these
challenges remain.

        In FY2014, under a government-wide continuing resolution, CFTC allocated $4210
million towards technological tools-which is unchanged from FY 2013 and a decline of $9
million from FY 2012 spending levels. However, during FY2013, CFTC’s regulatory
responsibility over the $400 trillion swaps market11 increased with the availability of continuous
data on swap transactions that must be analyzed and sifted for anomalous activity to initiate
referrals to Division of Enforcement. Therefore, the efficient deployment of information
technology resources remains a management challenge and concern given CFTC’s declining
budget under sequestration.

        Our FY2013 financial statement audit of the CFTC Customer Protection Fund confirmed
that the financial statements presented the fund’s financial position fairly, in all material respects,
and that the fund was fully funded.12 As a result of this audit our near term goal is to evaluate
how the Customer Protection fund is using its available resources to reach potential participants
in the commodities markets with impartial and educational information. We have begun an audit
to assess the success of this outreach.

FY 2013 Most Serious Management Challenge. The most serious management challenge
anticipated for FY 2014 is for the CFTC to deliver on congressional expectations in the

10
   CFTC– President’s Budget and Performance Plan FY 2015, at page 8 (available at:
http://www.cftc.gov/ucm/groups/public/@aboutcftc/documents/file/2013afr.pdf.).
11
   Id., page 1.
12
   The audit report is available here:
http://www.cftc.gov/ucm/groups/public/@aboutcftc/documents/file/cpfreport2013.pdf.

                                                      9
implementation of Dodd-Frank, including expansion of the CFTC’s regulatory footprint to the
swaps market, while adhering to government wide budgetary constraints.

        CFTC has promulgated over 67 rules, orders, and guidance responsive to the Dodd-Frank
Act.13 Now that these rules are in place, management must develop additional mechanisms to
shift agency productivity from rule writing to rule implementation. As we have identified in the
past, technological spending can increase staff productivity, but the sheer volume and complexity
of industry-supplied data mandates that knowledgeable agency staff be on hand to provide the
guidance necessary to efficiently monitor the markets. With the availability of ownership
control14 information across markets, CFTC surveillance of the swaps markets is broader and
more complex than the agency’s pre-Dodd Frank Act mission of monitoring futures and options
on futures markets. Therefore, the agency must adjust its regulatory strategy to reflect its
expanded jurisdiction.

        Moreover, increased reportable data will increase stakeholders’ expectation that CFTC
will conduct a robust oversight of the swaps market. On January 1, 2013, certain swap market
participants began reporting new and historical swap data to Swap Data Repositories pursuant to
17 CFR Part 45, and the Commission began the process of analyzing these new data and
incorporating them into the weekly CFTC Swaps Report available on its website.15 As a
consequence, the agency must now devote labor to the continuous surveillance of the swaps
markets. In addition, the agency is expanding its oversight of Swap Execution Facilities (SEFs) -
- trading platforms that must be registered with the CFTC. Such structural changes will require
the CFTC to expand compliance reviews of SEFs as they come online. This reinforces our
assessment that the agency, in the near future, will have to examine its current labor skill set and
reallocate resources – a challenge during sequestration – towards compliance matters as opposed
to rule making.


7.      Review of the Commodity Futures Trading Commission’s Response to Allegations
        Pertaining to the Office of the Chief Economist

         The Commodity Futures Trading Commission has supported an economic research
program almost continuously since its creation in 1976. The CFTC’s Office of Chief Economist
has produced over 100 independent economic research papers on topics relating to the
functioning of the futures markets. Each paper has been published as the work of the author,
with CFTC employment or affiliation listed as a biographical detail and with a disclaimer stating
that the research does not state the views of the Commission. CFTC economists are expected “to
present and review papers at professional meetings and conferences and to contribute to the
literature in the field,” and this expectation is stated in their position descriptions. Section 18 of


13
   See remarks of Chairman Gensler at the CME Global Financial Leadership Conference,
Nov. 19, 2013 (available here: http://www.cftc.gov/PressRoom/SpeechesTestimony/opagensler-153).
14
   See Remarks of Chairman Gensler, Ownership and Control ("OCR") Reports, Forms 102/102S, 40/40S, and 71,
October 30, 2013 (available at: http://www.cftc.gov/PressRoom/SpeechesTestimony/genslerstatement103013); see
also 78 FR 69177-69266 (Nov. 18, 2013)(Final rules for ownership and control reports, effective date Feb. 18, 2014,
available at: http://www.gpo.gov/fdsys/pkg/FR-2013-11-18/pdf/2013-26789.pdf).
15
   See http://www.cftc.gov/MarketReports/SwapsReports/index.htm.

                                                        10
the Commodity Exchange Act16 requires CFTC to “establish and maintain” a “research and
information program” that disseminates “educational and other informational materials” to
market users and the public and, while CFTC’s economic research program is not specifically
mandated, CFTC historically has described the economic research program as fulfilling the
mandate of section 18.

       In December 2012, the CFTC received a complaint suggesting that confidential trade
information protected under section 8(a)(1) of the Commodity Exchange Act, 12 U.S.C.
§ 12(a)(1), had been misused by CFTC economists working in the Office of Chief Economist,
and questioning the Agency’s authority to permit confidential trade information to be used for
economic research. In January 2013, then Chairman Gensler asked OIG to review these issues,
and asked us to examine controls on the use of confidential trade information, and onboarding
documentation for economists in OCE. f

       CFTC OIG determined that the use of confidential trade information for economic
research purposes was authorized under section 18 of the Commodity Exchange Act. CFTC
OIG did not find sufficient evidence to permit any conclusion that confidential trade information
had been used or disclosed in violation of the Commodity Exchange Act. While witness
statements uncovered no instances where information was misused; CFTC OIG ultimately
concluded that the absence of controls on use and removal of confidential trade information
rendered it impossible to determine conclusively that information was not misused. CFTC OIG
found that the same lack of information security controls over the use of confidential trade
information may be found Agency-wide.

         CFTC OIG determined that, while onboarding documentation for various economists
serving at CFTC as employees, consultants, and contractors did contain errors, the errors were of
an administrative nature and, looking to Comptroller General opinions addressing payment
issues arising from onboarding errors, found in dicta uniform indication that work performed
while an employee lacked proper onboarding due to administrative error can and usually should
be ratified. Agency staff also told OIG that errors going to security clearances are not cause to
disturb employee work product, unless there is extrinsic evidence that the work was not
performed properly. The OIG noted that onboarding errors were considered only within OCE,
with onboarding status for employees in other divisions not addressed by Agency management.

        CFTC OIG criticized a new review system for OCE economic research publications
instituted by the Agency following the receipt of the December 2012 complaint. Management’s
desire to detect instances where aggregated confidential trade data may be combined with
publicly available data and reverse-engineered to permit the reader to ascertain the identity of a
trader, or of the revelation of a trade secret is warranted; however, CFTC OIG found that the
length of time the review process was taking was unacceptable.

       In October 2013 Agency management permitted publication of three of 24 pending
economic research papers. CFTC OIG issued its discussion draft to the Commission on
December 18, 2013. Dismayed by the length of time the review process was taking, especially
for economic research papers that included no aggregated information protected under section 8,
16
     7 USC 22(a).

                                                11
we hoped to stimulate corrective action. Management provided their response on February 12,
2014.

        Based on comments in the management response, as well as comments we received from
OIG and CFTC staff, we made clarifying changes and corrections to the discussion draft that we
thought were appropriate. While the management response expressed strong disagreement with
our approach to the facts and legal issues,17 it nevertheless assured that the review process would
speed up.18 Agency management permitted the publication of four additional papers shortly
before the CFTC OIG issued its final report, and we noted these new approvals as a positive
development. We referenced the management response (and included it as an attachment) in our
final report order to clarify facts, and to apprise the Commission of the extent of our
disagreement on the issues, but our conclusions and recommendations from the discussion draft
remained unchanged.

         Shutting down all independent research and taking more than eight months to review
economic research papers (including papers that contained no aggregated confidential trade data
at all) raised potential legal issues, but more importantly raised significant issues going to the
efficiency and effectiveness of the CFTC economic research program.

        Economic research may be instrumental in detecting and explaining systemic risk and
other government-wide and market-wide issues of concern. Delaying the publication of research
thwarts the goals of public education and notification of important economic research issues to
Congress and to the public. As published research is the coin of the realm in academia,
impediments to such research will likely decrease future useful expertise. The principle point is
that an economic regulatory agency is potentially blocking itself off from the future input of
highly qualified academics to assist the agency in its tasks. We care not how that time was
divided internally; the Commission is the relevant unit. And it is the Commission that will bear
the potential onus of obtaining any less input of relevant expertise going forward.

       Our report recommended restarting the economic research program with similar research
capabilities as existed prior to the shut down, improving Agency-wide controls over the use and
disclosure of confidential trade information, and shortening the time for any review process for
economic research papers (while assuring the legality of any review process).

       We issued our report on February 21, 2014. Since then, agency management permitted
publication of an additional five economic research papers at the close of the reporting period.




17
   OIG issued a discussion draft to the Agency on December 18, 2013. Management provided their response on
February 12, 2014. Based on comments in the management response, as well as comments we received from within
OIG and from various CFTC staff, we made clarifying changes and corrections to the discussion draft that we
thought were appropriate. We reference the management response (and include it as an attachment) in our final
report order to clarify facts, and to apprise the Commission of the extent of our disagreement on the issues. Our
conclusions and recommendations remained unchanged.
18
   Management response at pages 13-14, and 37 n.177.
http://www.cftc.gov/ucm/groups/public/@aboutcftc/documents/file/cftc_046841.pdf.

                                                       12
                  CURRENT AUDITS, INSPECTIONS, EVALUATIONS,
                      REVIEWS, and OTHER PROJECTS

        At the end of this reporting period, there were four ongoing audits, and one ongoing
limited review, and one ongoing review.

1.          Audit of CFTC Financial Statements for Fiscal Year 2014

Audit Objectives

        In 2002, Congress passed the Accountability of Tax Dollars Act.19 The Act requires the
CFTC, along with numerous other Federal entities, to obtain an independent financial statement
audit each year. The objective of this audit is to render an opinion on the CFTC’s Fiscal Year
2014 financial statement and report on internal controls and compliance with laws and
regulations.

Status

        During the reporting period, the Inspector General selected an IPA to render an opinion
on the agency’s financial statements for Fiscal Year 2014 in accordance with generally accepted
auditing standards, Government Auditing Standards, Office of Management and Budget (OMB)
Bulletin 01-02 and OMB Circular A-136. The Fiscal Year 2014 audit began during this
reporting period with an entrance conference with senior agency managers, the OIG and
representatives from the IPA. Further meetings and reviews have taken place throughout this
reporting period while work on the audit is ongoing.


2.          Audit of CFTC’s Resource Allocation on Information Technology for Achieving its
            Strategic Regulatory Goals of Ensuring Sound Markets, Mitigating Systemic Risk,
            and Monitoring Intermediaries

Audit Objectives

       Since FY 2011, Congress has set aside specific funding levels to encourage the
Commission to focus on technology as a key component of its surveillance and oversight
program. CFTC OIG will audit CFTC’s resource allocation on information technology for
achieving its strategic regulatory goals of ensuring sound markets, mitigating systemic risk, and
monitoring intermediaries.




19
     See fn. 2.

                                                13
Status

      CFTC OIG contracted with an independent public accounting firm to conduct the audit.
Fieldwork for this audit was ongoing at the close of the reporting period. The planned
completion date is April 25, 2014.


3.         Audit of CFTC’s Procedures for Evaluating Futures Commission Merchants’
           (FCM) and Retail Foreign Exchange Dealers’ (RFED) Compliance with Mandated
           Financial Regulatory Reporting Requirements

Audit Objectives

       The objective of this audit is to assess the process CFTC examination staff, in the
 Division of Swap Dealers and Intermediary Oversight, undertake in their review of financial
 information submitted by FCM and RFED in compliance with CFTC regulatory requirements,
 including CEA section 1.16 and 1.17. The audit may also evaluate policies and procedures
 CFTC employs to ensure that registrants holding customer funds remain in compliance with
 CFTC requirements.


Status

      CFTC OIG contracted with an independent public accounting firm to conduct the audit.
Fieldwork for this audit was ongoing at the close of the reporting period. The planned
completion date is April 25, 2014.


4.         Audit of the CFTC Consumer Outreach Program’s Efforts for Enhancing
           Awareness of Regulatory Resources and Protections Available to Commodity
           Market Users Against Fraud

Audit Objectives

        The CFTC website states: “CFTC’s Office of Consumer Outreach continually strives to
provide effective information and tools to help consumers avoid fraud.”20 CFTC OIG is
conducting an audit of the CFTC Consumer Outreach Program’s efforts for enhancing awareness
of regulatory resources and protections available to commodity market users against fraud.

Status

       CFTC OIG contracted with an independent public accounting firm to conduct the audit.
This audit was ongoing at the close of the reporting period. The planned completion date is
April 25, 2014.


20
     http://www.cftc.gov/ConsumerProtection/Resources/index.htm.

                                                       14
5.       Limited Review of CFTC’s Compliance with the Improper Payments Elimination
         and Recovery Act (IPERA)

Limited Review Objectives

        IPERA directs each Agency’s Inspector General, beginning with Fiscal Year 2012, to
review Agency improper payment reporting in the Agency’s Annual Financial Report (AFR) to
assess the Agency’s compliance with IPERA.

Status

        At the end of the reporting period, the limited review was in process. OIG issued a letter
report on April 7, 2014 providing negative assurance that CFTC was in compliance with IPERA.

6.       Review of CFTC’s Use of Leased Space in Kansas City

Background

        CFTC OIG issued a review of small purchases in 2012.21 Our field work for this review
drew our attention to the fact that the Kansas City Office currently is not staffed at capacity; we
viewed at least 30 empty workspaces (offices and cubicles) during our interviews there. The
new offices in Kansas City at the time were less than a year old and we realized some staffing
increases might be anticipated; however, since our report issued the Kansas City Board of Trade
building has been sold, with all trading moved to Chicago. In our review of small purchases, and
in our previous Semiannual Report,22 we noted the issue and advised that if space is not being
used, we believe steps should be taken to reduce associated costs, perhaps through subleasing.

      Our review will analyze unused leased space in the Kansas City field office, and make
recommendations as warranted.23

Status

       On March 31, 2014, we delivered our discussion draft to relevant Agency management
for comment.




21
   Our final report issued on December 21, 2012. Available here:
http://www.cftc.gov/ucm/groups/public/@aboutcftc/documents/file/oig_finalreview122112.pdf.
22
   CFTC OIG Semiannual Report for the Period Ending March 31, 2013, page 9. Available here:
http://www.cftc.gov/ucm/groups/public/@aboutcftc/documents/file/oigsar033113.pdf.
23
   We considered but determined not to address other CFTC leases at this time due to staffing limitations.

                                                         15
     AUDIT REPORTS and REVIEWS OVER SIX MONTHS OLD
1.     Corrective Action not Completed

       There were no instances of audit reports over six months old where corrective action had
not been completed.

2.     Corrective Action Completed

        There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.

3.     Management Decision not Made

        There are no instances of a report issued before the commencement of the reporting
period for which a management decision had not been made by the end of the reporting period.
In 2006, the CFTC OIG issued a report titled “Review of the Need for a Western Regional Office
in Los Angeles.” That report recommended, among other things, that the Commission review
the feasibility of reestablishing the former Los Angeles field office. That recommendation was
not carried out largely due to budget constraints. In January 2008, partially in response to a
Congressional inquiry, CFTC OIG updated its analysis and on March 12, 2008, issued a follow-
up report which reiterated the earlier recommendation. In January 2009, the Acting Chairman
issued a decision declining to implement the recommendation generally due to cost
considerations, but asked the Agency to revisit the issue on a yearly basis. We agree that this
recommendation should be revisited, and implemented when feasible. We do not recommend
closing any of the existing field offices.



                                  INVESTIGATIONS
        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees and other
sources concerning the possible existence of an activity constituting a violation of law, rules or
regulations, or mismanagement, abuse of authority, or gross waste of funds, or a substantial and
specific danger to the public health and safety. No investigations were pending at the close of
the prior period.


 SUMMARY OF MATTERS REFERRED TO PROSECUTORIAL
                 AUTHORITIES
       No matters were referred to prosecutorial authorities during the reporting period.


                                                16
                        CONGRESSIONAL INQUIRIES
        OIG fielded multiple requests for assistance from members of Congress and staff during
the reporting period. Issues addressed included recent OIG activities, recent Agency activities,
and proposed and pending legislation affecting the OIG and the Agency.


       LEGISLATIVE, REGULATORY AND RULE REVIEWS
1.     Introduction and Summary

        As specified in Section 4(a)(2) of the Inspector General Act of 1978, OIG reviews the
impact of existing and proposed legislation and regulations on CFTC programs and operations
and makes recommendations regarding more effective or efficient alternatives or protections
against fraud and abuse. OIG also reviews exchange rule proposals circulated to senior staff at
CFTC.

        OIG notified the responsible Divisions as to any concerns with draft and final documents
relating to legislation, rules or investigations. Formal comments were not filed with the
Commission during this reporting period.


2.     Rule Reviews Initiated in Previous Reporting Periods

        There were no rule reviews initiated in previous reporting periods which were continued
into this reporting period.

3.     Rule Reviews Initiated this Reporting Period

       No rule reviews were initiated during this reporting period.

4.     Legislative Activities

        OIG tracked legislation impacting programs and operations of the CFTC, and made
contact with Congressional staff concerning various Agency and IG issues as appropriate. The
IG serves on the legislation committee for the Council of Inspectors General on Integrity and
Efficiency, which comments on proposed amendments to the IG Act and other legislation
affecting the IG community.




                                               17
                                               PEER REVIEWS
        An important function in each Agency OIG is the peer review process. The Inspector
General community’s annual report, A Progress Report to the President, Fiscal Year 2007,24
described the processes for audits and investigative peer reviews as follows:

       Government Auditing Standards require that audit organizations conducting audits of
Federal agencies undergo peer reviews every 3 years. The IG community has implemented a
process to meet this requirement. The purpose of the peer review is to determine whether the
reviewed audit organization’s internal quality control systems are adequate and provide
reasonable assurance that applicable auditing standards, policies and procedures are met.

        Similarly, investigative peer reviews are conducted to ensure compliance with the
requirements of the Quality Standards for Investigations and determine whether adequate
internal safeguards and management procedures exist to ensure that law enforcement powers are
properly exercised.25

      Section 989C of the Dodd-Frank Act implemented a requirement to include in each OIG
semiannual report an appendix containing

       •   the results of any peer review conducted by another Office of Inspector General during
           the reporting period; or if no peer review was conducted within that reporting period, a
           statement identifying the date of the last peer review conducted by another Office of
           Inspector General;

       •   a list of any outstanding recommendations from any peer review conducted by another
           Office of Inspector General that have not been fully implemented, including a statement
           describing the status of the implementation and why implementation is not complete; and

       •   a list of any peer reviews conducted by the Inspector General of another Office of the
           Inspector General during the reporting period, including a list of any outstanding
           recommendations made from any previous peer review (including any peer review
           conducted before the reporting period) that remain outstanding or have not been fully
           implemented.

    In accordance with Section 989C of the Dodd-Frank Wall Street Reform and Consumer
Protection Act (“Dodd-Frank Act”), Pub. L. 111-203, 124 Stat. 1376 (2010), please be advised
that a peer review of CFTC OIG’s audit operations was in process at the end of the reporting
period. A final report is expected by May 30, 2014. The last peer review of the audit function
conducted by another Office of Inspector General was completed on March 31, 2011.



24
     http://www.ignet.gov/randp/fy07apr.pdf.
25
     Id. at p.19.

                                                    18
    The last peer review of the investigative function conducted by another Office of Inspector
General was completed on March 27, 2013; it concluded that the system of internal safeguards
and management procedures for the investigative function of the CFTC OIG in effect for the
year ended January 31, 2013, was compliant with the quality standards adopted by CIGIE, and
that CFTC OIG safeguards and procedures provide reasonable assurance of conforming with
professional standards in the conduct of its investigations..

    CFTC OIG did not conduct any peer reviews during this reporting period and there remain
no outstanding recommendations from peer reviews previously conducted by CFTC OIG.
During this reporting period, OIG continued to monitor the government-wide OIG peer review
schedules as communicated by the Council of the Inspectors General on Integrity and Efficiency.
There currently remain no outstanding recommendations from peer reviews previously
conducted by or of CFTC OIG.


    SUMMARY OF EACH REPORT MADE TO THE AGENCY
                      HEAD
        No reports were made to the Agency head under section 6(b)(2) concerning information
or assistance unreasonably refused or not provided (mandated under section 5(a)(5) of the Act).


                  REVISED MANAGEMENT DECISIONS
       No management decisions were revised during the reporting period.




                INSPECTOR GENERAL DISAGREEMENT
      The Inspector General did not disagree with any management decisions on OIG
recommendations during the reporting period.


                                      GAO LIASON
        OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
OIG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local governmental agencies, and nongovernmental entities, audits,
investigations, and evaluations regarding the economy, efficiency, and effectiveness of CFTC
programs and operations.



                                               19
        GAO also conducts audits of CFTC activities, and OIG plans its audits, inspections,
evaluations, reviews, and investigations so as not to duplicate GAO's efforts. Moreover, OIG in
its audit activities identifies the goals of each audit and the methods of reaching the goals so as to
minimize the requirements placed on CFTC resources.


     STRATEGIC PLAN FOR THE OFFICE OF THE INSPECTOR
                        GENERAL
1.     Investigative Agenda

       The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        OIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. However, allegations and
complaints are also received from the general public and Congress. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because OIG
believed that an independent regulatory Agency such as the CFTC, without grant money or
substantial contracts to award, was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach OIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline phone number is (202)418-
5510.

        Because of the necessarily reactive nature of OIG's investigative program, no
investigative agenda has been established.


2.     Legislative and Regulatory Review Agenda

        Because of the importance of this activity in a financial and economic regulatory Agency,
OIG reviews proposed and final CFTC regulations, legislation and selected exchange rules using
six basic criteria: Whether the Agency: (1) has identified specifically the problem(s) to be
addressed by the proposal; (2) has defined through case study or data analysis a clear link
between the proposed solution and the identified problem(s); (3) has specified clearly the means
to effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long term; and (6) has met the requirements of the Regulatory
Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the Agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the Agency to manage
                                                 20
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because OIG does not initiate legislation or, generally, regulations, OIG legislative and
regulatory review program is reactive to the legislative and regulatory proposals developed by
others. Accordingly, no independent legislative and regulatory review agenda has been
established.


3.     Audit, Inspection, Evaluation and Review Agenda

a. Introduction

        The primary objectives of the OIG audit, inspection, evaluation and review agenda is to
promote long-term efficiency and effectiveness in the administration and operation of the
Commission and to protect against fraud and abuse. The audit, review, evaluation, and
inspection agenda and priorities for OIG are determined based on the following factors:


       •   Adequacy of internal control systems as indicated by vulnerability assessments and
           internal control reviews recommended by OMB Circular A-123;

       •   Changes in the program conditions or particular vulnerability of the organization,
           program, activity, or function to problems or deficiencies;

       •   Current and potential dollar magnitude and likely benefits of a review on the
           efficiency or effectiveness of CFTC programs and operations;

       •   Management priorities and improvements that may be possible;

       •   Results of audits of CFTC programs and operations by other Federal agencies; and

       •   Availability of audit resources and the potential opportunity costs to the agency.


b. Annual Audits

       The following required audits are performed on an annual basis.

Audit of CFTC Financial Statements

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, OIG has engaged a contractor to provide the audit effort required to
enable the contractor to render an opinion on the Agency’s financial statements for each fiscal


                                                21
year in accordance with generally accepted auditing standards, Government Auditing Standards
and OMB Bulletin 07-04.

Audit of CFTC Customer Protection Fund

        Section 745(g)(5)(I) of the Dodd-Frank Act requires the Agency to submit to Congress a
yearly report on the Commission’s whistleblower award program that includes a complete set of
audited financial statements, including a balance sheet, income statement, and cash flow
analysis. The OIG is undertaking this required audit.

c. Annual Reviews and Evaluations

We will perform the following reviews and evaluations on an annual basis:

Inspector General’s Assessment of CFTC’s Management Challenges

       The Reports Consolidation Act of 2000 requires the Inspector General to summarize the
most serious management and performance challenges facing the CFTC and to assess the
Agency’s progress in addressing those challenges.

Review of Compliance with the Federal Managers' Financial Integrity Act, FMFIA

       In support of OMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance and advise the Agency head as to whether the Agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Evaluation of the CFTC Information Security Management Act, FISMA

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the Agency. This compliance may also be performed through an audit.


d. Other Audits, Inspections, Evaluations, Reviews and Projects

       Looking to the long term, the OIG intends to focus the balance of its resources on the
review of the management and operation of the agency and compliance with Congressional
mandates. OIG plans to concentrate its efforts in reviewing activities relating to the most serious
management challenges facing the CFTC.

        In addition, OIG is aware of the immense regulatory undertaking required under the
Dodd-Frank Act. OIG will seek to identify issues and to conduct inspections, reviews,
investigations and other activities relating to these management and regulatory challenges.
Finally, OIG will stand ready to respond to issues and requests as they are received from
Congress, the Agency and members of the public or any other source.



                                                22
e. Resources Required

        OIG estimates that approximately two staff years of effort will be devoted over each of
the next five years to the annual audit, the annual review, and the annual evaluation described
above. However, OIG continuously updates its audit universe in view of CFTC’s increased
responsibilities under the Dodd-Frank Act and will reevaluate its staffing needs once each update
is complete. Revision of the CFTC OIG audit procedures and other remediation-related tasks,
and all other investigations, inspections, evaluations, review and other projects will consume up
to two and a half staff years. Because OIG resources can be diverted at any time to an
investigation, audit, inspection, survey, evaluation, review, or other project that responds to
current concerns or allegations, and must be completed in a timely fashion in order to be of
assistance to the Agency or Congress, it is impossible to forecast with complete accuracy how
resources will be utilized from year to year. In FY 2015, we anticipate hiring one additional full
time staff. Due to staff size, we will continue to utilize outside independent auditors to perform
OIG audits as necessary.


             CONTACTING THE OFFICE OF THE INSPECTOR
                         GENERAL

        OIG is located at 1155 21st Street, N.W., Washington, D.C. 20581. Regular business
hours are between 8:30 AM and 5:00 PM, Monday through Friday, except Federal holidays. The
telephone number is (202)418-5110. The facsimile number is (202)418-5522. The hotline
number is (202)418-5510. The OIG web page is located at
http://www.cftc.gov/About/OfficeoftheInspectorGeneral/index.htm.




                                               23
     TABLE 1 – REPORTS ISSUED WITH QUESTIONED COSTS

                       (October 1, 2013 – March 31, 2014)

                                                             Dollar Value
                                                             Thousands
                                                    Number   Questioned Unsupported

A.    For which no management decision has
      been made by the commencement of the
      reporting period                              0        0          0

B.    Which were issued during the reporting
      period                                        0        0          0

      Subtotals (A + B)                             0        0          0
C.    For which a management decision was
      made during the reporting period              0        0          0

      (I)      dollar value of
               disallowed costs                     0        0          0

      ( ii )   dollar value of costs not
               disallowed                           0        0          0

D.    For which no management decision
      has been made by the end of the
      reporting period                              0        0          0




                                               24
TABLE 2 – REPORTS ISSUED WITH RECOMMENDATIONS
THAT FUNDS BE PUT TO BETTER USE

                      (October 1, 2012 – March 31, 2013)

                                                        Dollar Value
                                               Number   Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                          0        0

B.   Which were issued during the reporting
     period                                    0        0

     Subtotals (A + B)                         0        0
C.   For which a management decision was
     made during the reporting period          0        0

     (i)      dollar value of
              recommendations that
              were agreed to by management
                                               0        0

     ( ii )   dollar value of
              recommendations that
              were not agreed to by
              management                       0        0

D.   For which no management decision
     has been made by the end of the
     reporting period                          0        0




                                              25
         THE INSPECTOR GENERAL
         NEEDS YOUR HELP TO
         ASSURE THE INTEGRITY OF
         CFTC’S PROGRAMS




Report FRAUD, WASTE
Or ABUSE to the
INSPECTOR GENERAL
ANONYMOUSLY


HOTLINE
(202) 418-5510

Office of the Inspector General
Commodity Futures Trading Commission
1155 21ST Street, N.W.
Washington, D.C. 20581
